HHS/OIG-Audit--"Review of Pension Plan at a Terminated Medicare Contractor, Rocky Mountain Health Care Corporation, (A-07-97-01234)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Plan at a Terminated Medicare Contractor, Rocky Mountain
Health Care Corporation," (A-07-97-01234)
May 6, 1998
Complete Text of Report is available in PDF format
(3.76 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that approximately $4.1 million in excess
pension assets at the Rocky Mountain Health Care Corporation (Rocky Mountain)
should be remitted to Medicare. Rocky Mountain closed its Medicare segment (line
of business) effective December 29, 1995. Federal regulations and Medicare contracts
provide that pension gains which occur when a Medicare segment closes should
be credited to the Medicare program. We recommended that Rocky Mountain return
the $4.1 million in excess pension assets to Medicare. The Health Care Financing
Administration concurred with our analysis and recommendation.